EXHIBIT A

VALBRUNA SLATER STEEL CORP. v. JOSLYN MFG. CO.
Cite as 934 F.3d 553 (7th Cir. 2019)

by the agency’s appeal coordinator during
the June 2013 hearing that some trees
located on the comparison site appeared to
be in the same ‘‘family’’ as the removed
trees is not contrary evidence, and is not,
at least without more, even relevant. The
agency’s mandate is to make an assessment of sufficient reliability that benefits
can be denied. This post hoc observation
by an agency officer is not enough for us
to avoid finding the agency’s decision arbitrary and capricious.
The agency has also claimed on appeal
that the NRCS experts could identify
the species of removed trees via a series
of aerial photography slides. There is no
evidence in the record that any agency
expert has attempted to identify the removed trees’ species from aerial photographs. We confirmed at oral argument
which photographs might be relied upon
by the agency. While it is possible those
blurry photographs are of the Boucher
farm, it is highly implausible that anyone—even USDA experts—could use
these aerial photographs to identify species of trees.14

553

interpretation of this regulation, rendering
the decision arbitrary and capricious.
The district court’s judgment is REVERSED and the case is REMANDED
with instructions to enter judgment for
Mrs. Boucher, awarding all appropriate relief.

,
VALBRUNA SLATER STEEL CORPORATION, et al., Plaintiffs-Appellees, Cross-Appellants,
v.
JOSLYN MANUFACTURING COMPANY, et al., Defendants-Appellants,
Cross-Appellees.
Nos. 18-2633 & 18-2738
United States Court of Appeals,
Seventh Circuit.
Argued May 16, 2019
Decided August 8, 2019
Rehearing En Banc Denied
September 6, 2019

As Mrs. Boucher correctly pointed out
during the agency appeal process, the
NRCS experts did not attribute the alteration of hydrology to the removal of the
nine trees, and the agency presented no
evidence that the tree removal altered the
wetland hydrology. The USDA hearing officer and appellate officer failed to engage
meaningfully with this point, thereby ignoring a crucial factor under the agency’s

Background: Owner of environmentally
contaminated site filed suit against former
owner of the site seeking contribution under Comprehensive Environmental Response, Compensation and Liability Act
(CERCLA) and Indiana’s Environmental
Legal Act (ELA), and declaration that former owner was liable for future costs in
removing hazardous substances from site.

14. Post hoc agency arguments notwithstanding, it is unclear from the administrative record what slides the agency experts reviewed
before submitting their 2013 Final Technical
Determination. During the June 2013 agency
hearing, Mrs. Boucher referenced aerial photographs to support her contention that the
disputed parcels had never sustained a vegetation coverage like that on Field 7. The

USDA appeals coordinator inquired how Mrs.
Boucher had obtained the referenced slides
because the agency’s technical team had
‘‘misplaced’’ their copies and had never requested any replacement slides from FSA.
There are some notes from Karen Hauer’s
initial 2002 assessment reviewing slides, but
those notes do not mention any species of
trees.

554

934 FEDERAL REPORTER, 3d SERIES

The United States District Court for the
Northern District of Indiana, No. 1:10-cv00044-JD, Jon E. DeGuilio, J., 804
F.Supp.2d 877, granted in part and denied
in part former owner’s motion for summary judgment, and following bench trial,
awarded owner damages and apportioned
liability for past and future cleanup costs
75% for former owner and 25% for owner.
Parties cross-appealed.
Holdings: The Court of Appeals, St. Eve,
Circuit Judge, held that:
(1) res judicata did not bar owner’s action
against former owner seeking contribution under CERCLA;
(2) site owner’s claim for cleanup costs
under CERCLA accrued when it initiated its own remediation action;
(3) res judicata barred owner’s action
against former owner seeking cleanup
costs under the ELA;
(4) District Court’s decision to reduce
amount that owner could recover from
former owner by $500,000 was rational; and
(5) District Court was within its discretion
in holding no-fault owner accountable
for 25% of past and future cleanup
costs.

2. Federal Courts O3567
A district court’s order disposing of
defenses as a matter of law is subject to de
novo review on appeal.
3. Judgment O828.9(5), 828.16(4)
Dismissal of site owner’s earlier suit
in Indiana state court, seeking to recover
cleanup costs from former owner of environmentally contaminated site under
Indiana’s Environmental Legal Act (ELA),
did not preclude owner’s later action
against former owner in federal court
seeking contribution under CERCLA,
since Indiana law required prior jurisdictional competency for claim preclusion to
apply, and Indiana court did not have jurisdiction to hear CERCLA claim, which
was within exclusive jurisdiction of federal
courts.
Comprehensive Environmental
Response, Compensation, and Liability Act
of 1980 § 113, 42 U.S.C.A. § 9613(b).
4. Judgment O584
Claim preclusion, or res judicata, generally bars the relitigation of claims that
were brought, or could have been brought,
in an earlier suit that has reached final
judgment.

1. Environmental Law O645

5. Federal Courts O3045(6)
To decide the preclusive effect of a
state court judgment, and in the interest of
affording full faith and credit to state court
judgments, federal courts look to the law
of the state where the judgment occurred.
28 U.S.C.A. § 1738.

District Court’s decision to strike defenses asserted by former owner of environmentally contaminated site in its
amended answer, in site owner’s action
seeking contribution under CERCLA, was
dispositive order on defenses reviewable
on appeal. Comprehensive Environmental
Response Compensation and Liability Act
of 1980 § 101 et seq., 42 U.S.C.A. § 9601 et
seq.

6. Judgment O540
Under Indiana law, the following four
elements must be met for claim preclusion
to apply: (1) the former judgment must
have been rendered by a court of competent jurisdiction; (2) the former judgment
must have been rendered on the merits;
(3) the matter now in issue was, or could
have been, determined in the prior action;
and (4) the controversy adjudicated in the

Affirmed.

VALBRUNA SLATER STEEL CORP. v. JOSLYN MFG. CO.
Cite as 934 F.3d 553 (7th Cir. 2019)

former action must have been between the
parties to the present suit or their privies.
7. Judgment O585(4)
Under Indiana law, as predicted by
the Court of Appeals, if a counterclaim is
exclusively federal, it is not compulsory
and not subject to claim preclusion. Restatement
(Second)
of
Judgments
§ 26(c)(1).
8. Federal Courts O3008(2), 3103
When a federal court must predict
state law, dicta from a state supreme court
is good evidence of how the court would
decide an issue it has not yet directly
encountered.
9. Environmental Law O671
Cleanup performed by intervening
owner of environmentally contaminated
site was removal, not remediation, and,
thus, current site owner’s claim against
former owner for cleanup costs under
CERCLA accrued, and six-year statute of
limitations, began to run, when current
site owner initiated its own remediation
action, where intervening owner’s cleanup
was temporary solution rather than comprehensive or permanent action, covering
only part of site’s pollution causes, and
intervening owner performed the work in
response to impending threat waste posed
to nearby water sources. Comprehensive
Environmental Response, Compensation,
and Liability Act of 1980 § 101, 42
U.S.C.A. §§ 9601(23), 9601(24).
10. Environmental Law O439
Under CERCLA, ‘‘removal’’ generally
refers to a short-term action taken to halt
risks posed by hazardous wastes immediately, whereas ‘‘remedial actions’’ are longer term, more permanent responses.
Comprehensive Environmental Response,
Compensation, and Liability Act of 1980

555

§§ 101, 101, 42 U.S.C.A. §§ 9601(23),
9601(24).
See publication Words and Phrases
for other judicial constructions and
definitions.

11. Environmental Law O439
A ‘‘removal action’’ under CERCLA is
usually one that: is designed as an interim
or partial fix; performed in response to an
immediate threat; is short in length; does
not address the entire problem; and/or
does not address the root of the problem.
Comprehensive Environmental Response,
Compensation, and Liability Act of 1980
§ 101, 42 U.S.C.A. § 9601(23).
See publication Words and Phrases
for other judicial constructions and
definitions.

12. Environmental Law O439
A ‘‘remedial action’’ under CERCLA
is generally: designed as a permanent or
complete fix; performed not in response to
an
imminent
environmental
threat;
lengthy; designed to address the root of
the problem; and/or designed to address
the entire problem. Comprehensive Environmental Response, Compensation, and
Liability Act of 1980 § 101, 42 U.S.C.A.
§ 9601(24).
See publication Words and Phrases
for other judicial constructions and
definitions.

13. Environmental Law O439
Given the potential for overlap between the two characterizations, courts decide the question of whether a cleanup was
removal or remediation under CERCLA
on a case-by-case basis, and no one characteristic of the cleanup is usually dispositive. Comprehensive Environmental Response, Compensation, and Liability Act of
1980 § 101, 42 U.S.C.A. §§ 9601(23),
9601(24).

556

934 FEDERAL REPORTER, 3d SERIES

14. Environmental Law O439
The length of a cleanup is not dispositive in determining whether it is removal
or remediation under CERCLA. Comprehensive Environmental Response, Compensation, and Liability Act of 1980 § 101,
42 U.S.C.A. §§ 9601(23), 9601(24).
15. Judgment O678(2)
Under Indiana law, a privy for purposes of res judicata includes one who
after rendition of a judgment has acquired
an interest in the subject matter affected
by the judgment.
16. Judgment O681, 686
The post-judgment acquisition of an
interest in the subject matter affected by a
judgment, as would make the acquiring
party a privy for purposes of res judicata
under Indiana law, may occur through or
under one of the parties, as by inheritance,
succession, or purchase.
17. Judgment O678(1)
Under Indiana law, an entity does not
have to control a prior action for privity to
exist for purposes of res judicata.
18. Judgment O828.9(5), 828.14(1)
Under Indiana law, current owner of
environmentally contaminated site was in
privity with intervening site owner, whose
earlier state court suit against former owner to recover cleanup costs under Indiana’s
Environmental Legal Act (ELA) was dismissed, and, thus, res judicata barred current owner’s later action against former
owner seeking cleanup costs under the
ELA, where intervening owner brought
state court suit to recover costs incurred
for cleanup at the site, and, by purchasing
the site, current owner acquired an interest in both the site and potential cost
recovery, even though it had not yet incurred any cleanup costs. Ind. Code
§§ 13-30-9-2-3.

19. Environmental Law O447
CERCLA gives district courts the discretion not only to decide how to ultimately divvy cleanup costs, but it also grants
the court the authority to decide which
equitable factors will inform its decision in
a given case. Comprehensive Environmental Response Compensation and Liability Act of 1980 § 101 et seq., 42 U.S.C.A.
§ 9601 et seq.
20. Environmental Law O447
The factors courts usually look to in
allocating costs, in an action to recover
cleanup costs under CERCLA, include,
among other things, the parties’ respective
fault for the pollution, the degree of toxicity of the pollution, and the care exercised
by the respective parties. Comprehensive
Environmental Response Compensation
and Liability Act of 1980 § 101 et seq., 42
U.S.C.A. § 9601 et seq.
21. Environmental Law O447
In allocating costs, in an action to
recover cleanup costs under CERCLA,
courts may consider any factors appropriate to balance the equities in the totality of
the circumstances. Comprehensive Environmental Response Compensation and Liability Act of 1980 § 101 et seq., 42
U.S.C.A. § 9601 et seq.
22. Environmental Law O686
On appeal from a district court’s allocation of costs, in an action to recover
cleanup costs under CERCLA, the Court
of Appeals will not reverse unless the district court’s decision about which factors
apply was irrational. Comprehensive Environmental Response Compensation and
Liability Act of 1980 § 101 et seq., 42
U.S.C.A. § 9601 et seq.
23. Environmental Law O447
District Court’s decision to reduce
amount that owner of environmentally contaminated site could recover from former

VALBRUNA SLATER STEEL CORP. v. JOSLYN MFG. CO.
Cite as 934 F.3d 553 (7th Cir. 2019)

owner by $500,000 was rational, in site
owner’s action to recover cleanup costs
under CERCLA, where at least $500,000
in cleanup costs had been contemplated in
site owner’s purchase price at competitive
bankruptcy auction, and not reducing site
owner’s recovery amount by that sum
would result in inequitable double recovery
for site owner. Comprehensive Environmental Response, Compensation, and Liability Act of 1980 § 107, 42 U.S.C.A.
§ 9607(a).
24. Environmental Law O447
District Court was within its discretion in holding no-fault owner of environmentally contaminated site accountable for
25% of past and future cleanup costs, in
site owner’s action against former owner
to recover cleanup costs under CERCLA,
where site owner clearly understood site’s
serious pollution problems before deciding
to purchase it for far less than asking
price, and far less than amount for which it
ultimately insured the site. Comprehensive Environmental Response, Compensation, and Liability Act of 1980 § 107, 42
U.S.C.A. § 9607(a).

Appeals from the United States District
Court for the Northern District of Indiana,
Fort Wayne Division. No. 1:10-cv-00044JD — Jon E. DeGuilio, Judge.
David
L.
Hatchett,
Attorney,
HATCHETT & HAUCK LLP, Indianapolis, IN, for Plaintiffs - Appellees.
Stephen D. Davis, Attorney, STEVE
DAVIS LAW, P.C., Burr Ridge, IL, Carson Griffis, Attorney, OFFICE OF THE
ATTORNEY GENERAL, Joshua G. Vincent, Attorney, HINSHAW & CULBERTSON LLP, William R. Kammeyer,
1.

We refer to the parties as Joslyn, Valbruna,
and Slater. The parties’ briefs identify the
particular affiliates or corporate entities that

557

Attorney, Chicago, IL, for Defendants Appellants.
Before Bauer, Hamilton, and St. Eve,
Circuit Judges.
ST. EVE, Circuit Judge.
This case is about an on-and-off, decades-long effort to stop an Indiana steel
mill’s pollution. Valbruna Slater Steel purchased the mill (or the ‘‘site’’) in 2004, and
it quickly got to work on needed, but costly, cleanup efforts. Valbruna then sued
Joslyn Manufacturing Company, which last
operated the site in 1981, to recover costs
under both the Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA) and Indiana’s Environmental Legal Actions statute (ELA).
Joslyn’s fault is undisputed; its operation
of the site started the pollution problems.
But Joslyn defended itself in the district
court on claim-preclusion, statute-of-limitations, and contribution grounds. The district court decided the CERCLA claim was
not precluded, but the ELA claim was. It
also decided the suit was timely. The district court, however, did impose equitable
contribution on Valbruna, requiring it to
pay for a quarter of the past and future
costs incurred during the site’s cleanup.
Joslyn appeals and Valbruna cross-appeals. We affirm across the board.
I.

Background

1

Joslyn, a steel manufacturer, owned
and operated the site, located in Fort
Wayne, Indiana, from 1928 to 1981. Joslyn’s operation polluted nearby soil,
sludge, and, as a result, ground-water. In
1981, Joslyn sold the site to Slater Steels
Corporation through an Asset Purchase
Agreement. After acquiring the site, Slater
were involved in the various transactions and
suits, but those corporate distinctions do not
matter for our purposes.

558

934 FEDERAL REPORTER, 3d SERIES

set to work with cleanup efforts. Slater did
so, the record suggests, upon pressure
from regulators and to bring the site into
compliance with the Resource Conservation and Recovery Act of 1976. See 42
U.S.C. § 6901 et seq.
From 1981 to 1987, Slater excavated
sludge and contaminated soil from two areas on the site: an impoundment area and
a waste pile. The excavation, however, did
not remove all contaminates. In 1988, Slater signed an agreement with the EPA,
which permitted monitoring of the site until the Indiana Department of Environmental Management (IDEM) could certify
the closure of the polluted areas. In 1991,
Slater undertook more work, this time capping the excavated impoundment area with
a concrete lid to prevent runoff. Slater also
implemented a ground-water detection
program. IDEM then issued a certification
of completion for the work Slater had
started, though IDEM recognized that
more work was ongoing and necessary at
the site.
Slater repeatedly tried to get Joslyn to
pay for the cleanup work it had done, to no
avail. In 1988 and again in 1994, Slater
sent Joslyn a demand letter explaining
that Joslyn was responsible for the cleanup under their agreement. Joslyn disagreed, telling Slater that it had assumed
responsibility for the costs. Slater escalated its demand in 1999. With another demand letter, it sought costs not just per
the agreement, but under CERCLA and
the ELA statute as well. Joslyn again declined to pay for the cleanup.
The dispute headed to court. In 2000,
Slater sued Joslyn in an Indiana state
court seeking (1) indemnification under the
agreement and (2) costs under the ELA
statute. Slater did not bring a CERCLA
claim in its state-court suit—nor could it.
Federal courts have exclusive jurisdiction
over CERCLA claims. 42 U.S.C. § 9613(b).

Slater’s state-law claims ultimately
failed. First, in 2001, the trial court ruled
that the ELA statute—enacted in 1998—
could not be retroactively enforced. (Later,
in different litigation, the Indiana Supreme
Court supported retroactive application.
See Cooper Indus., LLC v. City of South
Bend, 899 N.E.2d 1274, 1285 (Ind. 2009).
But for Slater’s purposes, its ELA claim
was over.) Then, in 2003, Slater filed for
bankruptcy and stopped cooperating in
discovery. When it failed to produce its
environmental manager for a deposition,
Joslyn moved to dismiss for want of prosecution under Indiana Trial Rule 41(E). The
trial court granted that motion in 2005.
In 2004, with the state suit pending,
Valbruna purchased the site at a competitive bankruptcy auction. It paid $6.4 million. Before finalizing the deal, and apparently recognizing the ongoing pollution
hazards, Valbruna negotiated with IDEM.
Valbruna and IDEM agreed to a Prospective Purchase Agreement (PPA). Under
the PPA, both parties agreed to put down
$500,000 each, the total of which would go
toward cleanup if Valbruna won the auction.
After Valbruna won the auction, its purchase contract granted Valbruna the right
to intervene in Slater’s pending state-court
suit. Valbruna never did so. Valbruna, instead, set out to perform more cleanup in
2005, as the PPA required. IDEM approved Valbruna’s cleanup plan, but the
plan budgeted to (and ultimately would)
deplete more than the $500,000 Valbruna
set aside. In 2007, with work ongoing,
IDEM again reviewed the site, and ordered even more cleanup.
Upset with how much the cleanup cost,
Valbruna filed this suit in 2010 against
Joslyn in federal court. Valbruna claimed
cost recovery pursuant to § 107 of CERCLA, 42 U.S.C. § 9607(a), and the ELA

VALBRUNA SLATER STEEL CORP. v. JOSLYN MFG. CO.
Cite as 934 F.3d 553 (7th Cir. 2019)

statute, Ind. Code §§ 13-30-9-2–3. Valbruna also sought a declaratory judgment regarding Joslyn’s liability. Joslyn counterclaimed for contribution under § 113(f). 42
U.S.C. § 9613(f). Valbruna did not cause
the pollution, Joslyn admitted, but under
§ 107(a)(1), a facility’s owner, like Valbruna, may be liable for cleanup costs.
Joslyn moved to dismiss on claim-preclusion grounds, citing the earlier state-court
suit between it and Slater. The district
court converted that motion to one for
summary judgment. It granted the motion
with respect to the ELA claim, concluding
that Slater and Valbruna were in privity,
but it denied the motion on the CERCLA
claim. The court explained, in a revised
ruling, that because CERCLA is an exclusively federal claim there could be no claim
preclusion based on the failure to raise it
in an earlier state-court suit.
Joslyn then tried to defeat the CERCLA claim on a different ground. It filed a
motion for summary judgment arguing
that the claim was time-barred because it
was brought more than six years after the
start of ‘‘remedial action’’—Slater’s earlier
cleanup, according to Joslyn. 42 U.S.C.
§ 9613(g)(2). The district court disagreed.
In a thorough opinion, the district court
decided, as a matter of law, that Slater’s
cleanup was ‘‘removal’’ and therefore the
relevant limitations period had not tolled.
Compare id. § 9613(g)(2)(A) (time limits
for removal actions) with (B) (time limits
for remedial actions). Joslyn attempted to
amend its answer, adding the claim-preclusion and statute-of-limitations defenses for
which it had already filed summary-judgment motions. The magistrate judge granted Joslyn leave to amend but struck the
defenses, concluding that the district
court’s earlier decisions settled that those
defenses did not apply as a matter of law.
Joslyn asked for reconsideration, which
the magistrate judge denied.

559

Joslyn was undeterred. It filed another
motion for summary judgment, without
first seeking leave as the court had told it
to. Again, Joslyn argued its already-stricken claim-preclusion and statute-of-limitations defenses. Valbruna then sought a
declaration that Joslyn was liable under
§ 107(a) of CERCLA. The district court
denied Joslyn’s successive motion and
granted Valbruna’s motion, finding that
there was no question that Joslyn, as the
initial polluter, was liable.
That left only two issues: damages and
contribution under CERCLA. The case
went to a bench trial in two phases on
those issues. As for damages, after trial
the district court concluded that Valbruna
had incurred $2,029,871.09 in costs while
remediating the site. It then reduced that
amount by $500,000, believing that it would
be unfair for Valbruna to recover that sum
twice, as it had been contemplated in Valbruna’s purchase price and the PPA. As
for contribution, the district court apportioned liability for past and future costs:
75% for Joslyn, 25% for Valbruna. The
district court justified Valbruna’s share by
citing its assumed risk in purchasing an
old metal-production site with well-known
pollution problems.
Joslyn appealed and Valbruna cross-appealed.
II.

Discussion

The parties on appeal continue their dispute over who should pay what for the
site’s costly clean up. The answer turns on
issues of preclusion, timeliness, and the
district court’s discretion in equitably allocating costs. We will address those issues
and the parties’ appeals in turn.
A.

Joslyn’s Appeal

Joslyn argues two reasons why Valbruna’s cost-recovery claim under CERCLA

560

934 FEDERAL REPORTER, 3d SERIES

should fail: it is precluded by the earlier
state-court suit and it is untimely. Before
addressing those arguments, we must pass
a procedural hurdle.
This is how the litigation over Joslyn’s
defenses should have played out: Joslyn
timely pleaded its preclusion and limitations defenses; the parties cross-moved at
summary judgment on those defenses; and
the district court, concluding, as it did, that
the defenses did not apply as a matter of
law, granted Valbruna summary judgment
on the defenses. No doubt we could review
that (hypothetical) grant of summary judgment after the final judgment. Bastian v.
Petren Res. Corp., 892 F.2d 680, 683 (7th
Cir. 1990). But things played out differently. Joslyn did not plead the defenses before moving for summary judgment on
them, and so Valbruna never cross-moved
on them (it just opposed Joslyn’s motion).
As a result, Joslyn now wants us to review
the district court’s denial of its motions for
summary judgment on the preclusion and
limitations defenses.
That request gives us pause, though,
because we do not typically review summary-judgment denials. After a case goes
to trial, as happened here, an earlier summary-judgment denial is ‘‘old news.’’ Kreg
Therapeutics, Inc. v. VitalGo, Inc., 919
F.3d 405, 416 (7th Cir. 2019); see also Ortiz
v. Jordan, 562 U.S. 180, 184, 131 S.Ct. 884,
178 L.Ed.2d 703 (2011). We have noted a
possible exception to that rule of non-reviewability, for ‘‘purely legal issues.’’
Mimms v. CVS Pharmacy, Inc., 889 F.3d
865, 869 (7th Cir. 2018); see also Carmody
v. Bd. of Trustees of Univ. of Illinois, 893
F.3d 397, 404 (7th Cir. 2018) (discussing
the ‘‘controversial exception’’); Lawson v.
Sun Microsystems, Inc., 791 F.3d 754, 761
n.2 (7th Cir. 2015) (noting ‘‘a split of authority on this point’’). This case arguably
2.

This is true despite Joslyn’s later attempt to
resuscitate the defenses with another sum-

fits into this possible exception. The facts
are undisputed and the district court’s preclusion and limitations decisions were as a
matter of law.
[1, 2] We, however, need not decide as
much to hear Joslyn’s appeal. Despite Joslyn’s focus on the summary-judgment denials, Joslyn’s defenses were finally put to
bed by a different order—the order striking the defenses from the amended answer.2 The decision to strike, which incorporated the earlier summary-judgment
reasoning, was a dispositive order on the
defenses, which we can review. See Heraeus Kulzer, GmbH v. Biomet, Inc., 881
F.3d 550, 563 (7th Cir. 2018). Because the
defenses failed in the district court as a
matter of law, our review is de novo. Lopez-Aguilar v. Marion Cty. Sheriff’s Dep’t,
924 F.3d 375, 384 (7th Cir. 2019).
1.

CERCLA Claim Preclusion

[3–5] Claim preclusion, or res judicata,
generally bars the relitigation of claims
that were brought, or could have been
brought, in an earlier suit that has reached
final judgment. The district court here
concluded that the state-court suit did not
preclude the CERCLA claim. To decide
the preclusive effect of a state-court judgment, and in the interest of affording full
faith and credit to state-court judgments,
28 U.S.C. § 1738, we look to the law of the
state where the judgment occurred. Mains
v. Citibank, N.A., 852 F.3d 669, 675 (7th
Cir. 2017). That state here is Indiana.
[6] Under Indiana law, the following
four elements must be met for claim preclusion to apply:
(1) the former judgment must have been
rendered by a court of competent jurisdiction; (2) the former judgment must
mary-judgment motion, which, again, it filed
without leave from the court.

VALBRUNA SLATER STEEL CORP. v. JOSLYN MFG. CO.
Cite as 934 F.3d 553 (7th Cir. 2019)

have been rendered on the merits; (3)
the matter now in issue was, or could
have been, determined in the prior action; and (4) the controversy adjudicated
in the former action must have been
between the parties to the present suit
or their privies.
Freels v. Koches, 94 N.E.3d 339, 342 (Ind.
Ct. App. 2018). We begin and end with the
first element, regarding jurisdictional competency.
Cost-recovery actions under CERCLA,
as we noted earlier, can only be brought in
federal court. 42 U.S.C. § 9613(b). The
question, then, is whether an Indiana court
has jurisdictional competency over an exclusively federal claim. Indiana courts have
not answered the question—nor will they.
State courts do not hear exclusively federal claims, by definition, and so the question
will not come before them.3 Matsushita
Elec. Indus. Co. v. Epstein, 516 U.S. 367,
375, 116 S.Ct. 873, 134 L.Ed.2d 6 (1996);
Wright & Miller, 18B Fed. Prac. & Proc.
§ 4470.1 (2d ed. 2019). So our task is to
answer the question ‘‘in the same way (as
nearly as we can tell) as the state’s highest
court would.’’ Newman v. Metro. Life Ins.
Co., 885 F.3d 992, 1000 (7th Cir. 2018).
The starting point is Marrese v. Am.
Acad. of Orthopaedic Surgeons, 470 U.S.
373, 105 S.Ct. 1327, 84 L.Ed.2d 274 (1985).
In Marrese, the Supreme Court held that
in deciding whether res judicata bars an
exclusively federal claim (there, a Sherman
Act claim), federal courts must look to
state law. En route to that holding, the
Court noted that, under most state law,
‘‘claim preclusion generally does not apply
where ‘[t]he plaintiff was unable to rely on
a certain theory of the case or to seek a
certain remedy because of the limitations
on the subject matter jurisdiction of the
3.

With one exception: a state supreme court
could, of course, answer the question if we
were to certify it. See Ind. R. of App. P. 64.

561

courts.’ ’’ Id. at 382, 105 S.Ct. 1327 (quoting Restatement (Second) of Judgments
§ 26(1)(c) (1982)). The Court elaborated, if
‘‘state preclusion law includes this requirement of prior jurisdictional competency,
which is generally true, a state judgment
will not have claim preclusive effect on a
cause of action within the exclusive jurisdiction of the federal courts.’’ Id. (emphasis in original). Based on this general rule,
the Court saw no need to carve out an
exception to the Full Faith and Credit
statute, and the deference to state judgments that it requires, for exclusively federal claims that are brought after a state
judgment. Such claims will usually not be
precluded under state law, the Court reasoned. Id. at 382–83, 105 S.Ct. 1327 & n.3.
The Restatement (Second) of Judgments
§ 26, which Marrese quotes, is equally
explicit about the general rule. It states:
‘‘When the plaintiff brings an action in the
state court, and judgment is rendered for
the defendant, the plaintiff is not barred
from an action in the federal court in
which he may press his claim against the
same defendant under the federal statute.’’
The Restatement then offers Illustration 2,
which Marrese also cites, 470 U.S. at 383,
105 S.Ct. 1327, and it offers clarification by
hypothetical:
A Co. brings an action against B Co. in a
state court under a state antitrust law
and loses on the merits. It then commences an action in a federal court upon
the same facts, charging violations of the
federal antitrust laws, of which the federal courts have exclusive jurisdiction.
The second action is not barred.
Restatement (Second) of Judgments
§ 26(c)(1). Federal courts make the same
point. Following Marrese and the RestateJoslyn, however, expressly disavowed any request to certify the question to the Supreme
Court of Indiana at oral argument.

562

934 FEDERAL REPORTER, 3d SERIES

ment, they recognize that if state law requires jurisdictional competency for res
judicata purposes, state judgments do not
preclude exclusively federal claims. See
United States v. B.H., 456 F.3d 813, 817
(8th Cir. 2006) (Iowa law); In re Lease Oil
Antitrust Litig. (No. II), 200 F.3d 317,
320–21 (5th Cir. 2000) (Alabama law); Valley Disposal, Inc. v. Cent. Vermont Solid
Waste Mgmt. Dist., 31 F.3d 89, 98 (2d Cir.
1994) (Vermont law); Pension Tr. Fund
For Operating Eng’rs v. Triple A Mach.
Shop, Inc., 942 F.2d 1457, 1461 (9th Cir.
1991) (California law); Gargallo v. Merrill
Lynch, Pierce, Fenner & Smith, Inc., 918
F.2d 658, 662–64 (6th Cir. 1990) (Ohio law);
McCarter v. Mitcham, 883 F.2d 196, 199–
200 (3d Cir. 1989) (Pennsylvania law); Cullen v. Margiotta, 811 F.2d 698, 732 (2d Cir.
1987) (New York law), overruled on other
grounds by Agency Holding Corp. v. Malley-Duff & Assocs., Inc., 483 U.S. 143, 107
S.Ct. 2759, 97 L.Ed.2d 121 (1987).
[7] Would the Supreme Court of
Indiana apply the general rule that Marrese describes, the Restatement adopts,
and federal courts have ascribed to other
states’ law? We hold that it would.
Indiana’s res judicata elements include the
jurisdictional-competency
requirement,
which was the basis for Marrese’s general
rule. More, the Supreme Court of Indiana
has already cited Marrese’s general rule
approvingly.
Green v. Hendrickson Publishers, Inc.,
770 N.E.2d 784, 791 (Ind. 2002), addressed
an exclusively federal counterclaim under
copyright law. 42 U.S.C. § 1338(a). It explained:
[W]e agree [with the lower court] that
claim preclusion could prevent the
Greens from presenting their [counter]
claim in a separate suit. We do not agree
that that would be the case if the state
court had no jurisdiction over the
Greens’ counterclaim. Although it is

true that the subject matter of the
Greens’ counterclaim and the as yet unfiled federal copyright claim are logically
related and presumably arise out of the
same ‘‘transaction or occurrence,’’ if the
state court had no jurisdiction over the
subject matter of the counterclaim, it
cannot be ‘‘compulsory.’’
770 N.E.2d at 791 n.2 (citing Marrese, 470
U.S. at 382, 105 S.Ct. 1327, quoting in turn
Restatement (Second) of Judgments
§ 26(1)(c)) (emphasis added). This is the
rule Marrese describes: if there is no
state-court jurisdiction to hear an exclusively federal claim, there is no claim preclusion.
[8] Joslyn submits that Green’s adoption of the rule was dicta. But we cannot
ignore it. Dicta from a state supreme court
is good evidence of how the court would
decide an issue it has not yet directly
encountered. Allen v. Transamerica Ins.
Co., 128 F.3d 462, 467 (7th Cir. 1997). That
is especially true in this case. As we noted
earlier, state courts have no ‘‘occasion’’ to
answer the question we face. Marrese, 470
U.S. at 381–82, 105 S.Ct. 1327. Absent
certification (which Joslyn disavows), dicta
offers the clearest insight into how the
court would rule here.
Plus, Green’s approval of Marrese and
Restatement § 26 was considered. Green
concerned, in part, whether a copyright
counterclaim was ‘‘compulsory’’ such that
it had to be brought in the state-court
action. This question is intertwined with
preclusion, as Green recognized, because if
a claim is compulsory it is later precluded
if not raised. See also Publicis Commc’n v.
True N. Commc’ns Inc., 132 F.3d 363, 365
(7th Cir. 1997). Green dropped the footnote
approving Marrese and Restatement § 26
to correct the Indiana appellate court’s
misunderstanding of these related issues.
See 770 N.E.2d at 791 n.2. If, as Green
held, a federal counterclaim was not exclu-

VALBRUNA SLATER STEEL CORP. v. JOSLYN MFG. CO.
Cite as 934 F.3d 553 (7th Cir. 2019)

sively federal, it could be compulsory in
state court and later precluded if not
raised. See id. at 791–92 & n.2. It follows,
as Green noted, that if the counterclaim
was exclusively federal—like the CERCLA
claim here—it is not compulsory and not
subject to claim preclusion. See id. at 791
n.2.
Joslyn also attempts to distinguish
Green on procedural grounds, noting that
it involved a defendant’s counterclaim and
not, as here, a plaintiff’s claim. That distinction does not undermine Green’s persuasiveness. Green remains Indiana’s only
treatment of whether earlier state-court
judgments bar exclusively federal claims.
It indicates that they cannot be claim precluded.
Green notwithstanding, Joslyn submits
that the Supreme Court of Indiana would
in fact find res judicata here because
Indiana, like most states, disapproves of
claim splitting. See, e.g., Erie Ins. Co. v.
George, 681 N.E.2d 183, 189–90 (Ind.
1997). Marrese considered a similar problem and found it unavailing. Despite the
general prohibition on claim splitting, the
Court explained, ‘‘the jurisdictional competency requirement’’ means that ‘‘subsequent attempts to secure relief in federal
court’’ are permitted ‘‘if the state court
lacked jurisdiction over the federal statutory claim.’’ 470 U.S. at 383 n.3, 105 S.Ct.
1327. Restatement § 26 also allows for the
tension between possible claim splitting
and the rule against claim preclusion in
these circumstances. It makes clear that
the rule is an ‘‘exception’’ to the general
prohibition on claim splitting.
Still, Joslyn insists, a decision that
claims are not precluded based only on
their federal exclusivity will lead to gamesmanship. Joslyn theorizes that plaintiffs’
lawyers will bring state-law claims without
their exclusively federal counterparts (like
securities or antitrust claims) in state

563

court, see how that litigation goes, and if it
goes poorly, switch gears and bring federal
claims in federal court. We are not so
worried. For one, an overt practice of
claim splitting amounts to bad-faith litigation. For another, other statutory and doctrinal bars should serve to prevent such
gamesmanship. Federal statutes of limitations, for example, will not toll simply because a state-law claim was filed. See In re
Copper Antitrust Litig., 436 F.3d 782, 793–
94 (7th Cir. 2006). And issue preclusion, or
collateral estoppel, prohibits plaintiffs from
relitigating facts, even if not claims, that
the state court already resolved.
Joslyn makes one more argument worth
addressing. Whatever Marrese thought
‘‘jurisdictional competency,’’ means, Joslyn
says, Indiana interprets it differently. It
cites Indiana cases that describe jurisdictional competence as meaning that the earlier suit ‘‘was based on proper jurisdiction.’’ Reed v. State, 856 N.E.2d 1189, 1194
(Ind. 2006). That generic description is
surely one aspect of jurisdictional competency. But it does not foreclose a broader
meaning in a different context—as Marrese, Restatement § 26, and many other
courts have understood it in the context we
face. The only Indiana case to touch on
that context was Green. We think it clear
that Indiana’s highest court would continue with the course Green mapped and find
no jurisdictional competency here.
2.

CERCLA’s Statute of Limitations

[9] Joslyn’s second defense is a timeliness one. The applicable limitations period
for CERCLA cost-recovery claims depends on whether, and when, ‘‘removal’’ or
‘‘remediation’’ occurred. See 42 U.S.C
§ 9613(g)(2)(A)–(B). For removal actions,
the time to file suit expires three years
after the removal is complete. For remedial action, however, the time expires six
years after the remedial action’s initiation.

564

934 FEDERAL REPORTER, 3d SERIES

The parties agree Valbruna started remedial action in 2005. The question is whether there was earlier remedial action—
namely, in the 1980s or in 1991, when
Slater performed cleanup. Joslyn thinks
that cleanup was remedial, and thus, this
action is untimely. Id. § 9613(g)(2)(B). Valbruna contends Slater’s actions were only
removals, and so this suit, filed within six
years of the remediation that began in
2005, is timely. Id.
We agree with Valbruna. The parties do
not dispute the underlying facts, and
therefore we can decide how to characterize the earlier cleanups—as removal or
remediation—as a matter of law. See New
York v. Next Millenium Realty, LLC, 732
F.3d 117, 126 (2d Cir. 2013); United States
v. Navistar Int’l Transp. Corp., 152 F.3d
702, 707 (7th Cir. 1998).
[10–13] Removal and remediation are
terms of art under CERCLA. CERCLA
defines a removal as ‘‘the cleanup or removal of released hazardous substances
from the environments,’’ and it defines remedial actions as ‘‘those actions consistent
with permanent remedy taken instead of
or in addition to removal actions.’’ 42
U.S.C. § 9601(23), (24). In clearer terms,
removal generally ‘‘refers to a short-term
action taken to halt risks posed by hazardous wastes immediately.’’ Frey v. E.P.A.,
403 F.3d 828, 835 (7th Cir. 2005). Remedial
actions ‘‘are longer term, more permanent
responses.’’ Bernstein v. Bankert, 733 F.3d
190, 201 n.5 (7th Cir. 2013). Filling in those
definitions further, a removal action is usually one that: is designed as an interim or
partial fix; performed in response to an
immediate threat; is short in length; does
not address the entire problem; and/or
does not address the root of the problem.
On the other hand, remedial action is generally: designed as a permanent or complete fix; performed not in response to an
imminent environmental threat; lengthy;

designed to address the root of the problem; and/or designed to address the entire
problem. See 42 U.S.C. §§ 9601(23), (24);
Next Millenium Realty, LLC, 732 F.3d at
127; United States v. W.R. Grace & Co.,
429 F.3d 1224, 1244–45 (9th Cir. 2005);
Colorado v. Sunoco, Inc., 337 F.3d 1233,
1240 (10th Cir. 2003). Given the potential
for overlap between the two characterizations, courts decide the removal-or-remediation question on a case-by-case basis. No
one characteristic of the cleanup is usually
dispositive. See Pub. Serv. Co. of Colorado
v. Gates Rubber Co., 175 F.3d 1177, 1182
(10th Cir. 1999) (‘‘Elements of either response action may overlap and semantics
often obscure the actual nature of the
cleanup performed.’’).
Here, neither the 1980s cleanup nor the
1991 work constituted remedial action. In
the 1980s, Slater excavated sludge and soil
from just two areas of the site (a former
surface impoundment and waste pile). That
was far from a comprehensive or permanent action. It was a temporary solution,
covering only a part of the plant’s pollution
causes. Slater also performed the work in
response to the threat the waste posed to
nearby water sources, which was of concern to regulators. As for the 1991 work,
Slater filled the excavated area at the surface impoundment area with clean soil. It
then constructed a concrete cap for that
area, and Slater implemented a groundwater detection monitoring program.
Again, this was a limited fix: it focused
only the impoundment lot. And the capping, too, was performed in response to an
impending environmental threat, as regulators highlighted for Slater.
[14] Joslyn makes a few points in response. It argues, first, that the length of
the 1980s cleanup—nearly eight years—
means it was a remedial, not removal,
action. The length of a cleanup is not
dispositive, however, and here the circum-

VALBRUNA SLATER STEEL CORP. v. JOSLYN MFG. CO.
Cite as 934 F.3d 553 (7th Cir. 2019)

565

stances and limitations of the excavation
outweigh the length of time it took to
complete the task. See Vill. of Milford v.
K-H Holding Corp., 390 F.3d 926, 934 (6th
Cir. 2004). Joslyn also contends that neither of the cleanups was in response to an
imminent and serious environmental hazard. Even so, the evident limitations of the
earlier cleanups, both in terms of space
and the amount of pollution, do not persuade us that they were remedial under
CERCLA.

Joslyn’s argument prioritizes form (the
cap’s makeup) over function (the cap’s purpose and effect). The concrete cap covered
just one area, and not even Joslyn seriously contends that it was meant to substantially resolve the bulk of the site’s ongoing
pollution problems. So while the fix may
have been permanent, it was so far from
comprehensive that we cannot say it was a
remedial action.4

Joslyn argues further that the work Slater performed was ‘‘consistent’’ with
remediation. Indeed, Joslyn argues, Slater
excavated the sludge and installed the cap
as a part of the ‘‘Voluntary Remediation
Plan’’ it had with IDEM. But we, like the
district court, see little merit in this argument. As the district court put it, ‘‘every
removal action is consistent with every
remedial reaction in that all are attempts
to alleviate environmental concerns.’’ The
key considerations here are the circumstances and purpose of Slater’s work, and
those considerations show that the work
was not remedial.

We turn now to Valbruna’s cross-appeal.
Valbruna challenges two of the district
court’s decisions: first, the decision that
Valbruna’s ELA claim was precluded by
the earlier state-court suit, and second, the
decision to reduce the costs by $500,000
and then hold Valbruna liable for 25%.

Joslyn, finally, sets aside the 1980s work
and focuses on the 1991 capping. What,
Joslyn asks, could be more permanent
than a concrete cap? And, as Joslyn points
out, permanent ‘‘confinement’’ of pollutants
is one of CERCLA’s examples for what
may constitute remedial action. 42 U.S.C.
§ 9601(24); see also Navistar Int’l Transp.,
152 F.3d at 711 (assuming, based on parties’ concessions, that a clay cap was a part
of a remediation effort). Here, however,
4.

Because we affirm on this ground, we need
not delve into the district court’s alternative
reason for finding the CERCLA claim timely:
that even if the earlier cleanups were remedial, they were separate ‘‘operable units’’ from
Valbruna’s current cleanup. We note that we
appear to have recognized that ground before.
See Bernstein v. Bankert, 702 F.3d 964, 984
(7th Cir. 2012), amended and superseded on

B.

1.

Valbruna’s Cross-Appeal

ELA Claim Preclusion

As noted earlier, Indiana law requires
privity between claimants for res judicata
to apply. E.g., Freels, 94 N.E.3d at 342.
The district court concluded that Valbruna
was a privy of Slater, which had filed the
state-court suit over cleanup costs and
from which Valbruna purchased the site.
Valbruna takes issue only with this privity
decision on appeal. The district court
granted Joslyn summary judgment on the
ELA claim, thus our review is de novo.
Mollet v. City of Greenfield, 926 F.3d 894,
896 (7th Cir. 2019).
[15–17] Under Indiana law, a privy includes ‘‘one who after rendition of [a] judgment has acquired an interest in the subject matter affected by the judgment.’’
reh’g, 733 F.3d 190 (7th Cir. 2013). But other
circuit courts have rejected the idea that there
can be multiple removal or remediation actions at a given site. See Sunoco, Inc., 337
F.3d at 1241; Kelley v. E.I. DuPont de Nemours & Co., 17 F.3d 836, 843 (6th Cir. 1994).
We leave for another day whether our decision in Bernstein represents a circuit split on
the question.

566

934 FEDERAL REPORTER, 3d SERIES

Becker v. State, 992 N.E.2d 697, 700–01
(Ind. 2013); Webb v. Yeager, 52 N.E.3d 30,
40 (Ind. Ct. App. 2016). The post-judgment
acquisition may occur ‘‘through or under
one of the parties, as by inheritance, succession, or purchase.’’ Hockett v. Breunig,
526 N.E.2d 995, 1000 (Ind. Ct. App. 1988).
And an ‘‘entity does not have to control a
prior action TTT for privity to exist.’’ Becker, 992 N.E.2d at 700–01.
[18] Whether Valbruna was in privity
with Slater turns on the ‘‘subject matter
affected’’ by the earlier judgment. That
subject matter was the site and the costs
Slater sought to recover. Slater, the site’s
owner, brought the state-court suit to collect under the ELA statute the costs incurred for cleanup at the site. After Valbruna’s purchase, Valbruna had the right
to intervene in the suit and similarly pursue those costs. With the subject matter
clear, so too is Valbruna’s privity with
Slater. By purchasing the site it ‘‘acquired
an interest’’ in both the site and the potential cost recovery. Id. at 701.
Valbruna’s counterarguments miss the
mark. It argues, for example, that there
was no privity because at the time of its
purchase it had not yet incurred any cleanup related costs. Privity, however, exists
when one ‘‘acquire[s] an interest in the
subject matter affected by the judgment.’’
Webb, 52 N.E.3d at 40. Valbruna acquired
an interest in the thing over which the
state-court suit was fought. That is enough
for privity under Indiana law.
Valbruna also advances a different conception of the relevant subject matter. It
submits that the subject matter was not
the property, or even the costs sought, but
instead the Asset Purchase Agreement between Joslyn and Slater. This conception is
too narrow. The agreement was a part of
the state-court suit, to be sure, but the
claims there, like the ones here, were
brought by the site’s current owner to

collect costs owed for Joslyn’s operation of
the site, including through the ELA statute. Valbruna gives us no reason to ignore
those salient features of the state-court
action and instead focus on just the agreement.
2.

Allocation of Costs

[19] That leaves the district court’s equitable allocation of costs. CERCLA gives
district courts the discretion not only to
decide how to ultimately divvy cleanup
costs, ‘‘but it also grants the court the
authority to decide which equitable factors
will inform its decision in a given case.’’
NCR Corp. v. George A. Whiting Paper
Co., 768 F.3d 682, 695 (7th Cir. 2014).
[20–22] Courts usually look to the
‘‘Gore factors’’—named after then-Congressman Al Gore—to decide allocation.
The Gore factors include, among other
things, the parties’ respective fault for the
pollution, the degree of toxicity of the pollution, and the care exercised by the respective parties. Envtl. Transp. Sys., Inc.
v. ENSCO, Inc., 969 F.2d 503, 508 (7th Cir.
1992). But these factors are neither binding nor exhaustive, and courts may ‘‘consider any factors appropriate to balance
the equities in the totality of the circumstances.’’ Id. at 509. We will not reverse
unless the district court’s decision about
which factors apply was irrational. NCR
Corp., 768 F.3d at 700.
[23] Valbruna first takes issue with the
district court’s decision to reduce the
amount it could recover, more than
$2,000,000, by $500,000. It did so believing
that Valbruna had accounted for at least
$500,000 in cleanup costs before purchasing the site, as evidenced by the PPA with
IDEM. Thus, reasoned the district court,
not reducing the recovery amount by that
sum would sanction ‘‘double recovery’’ for

VALBRUNA SLATER STEEL CORP. v. JOSLYN MFG. CO.
Cite as 934 F.3d 553 (7th Cir. 2019)

Valbruna, which would be inequitable.
That decision was rational.
Valbruna concedes that a district court
can consider the potential windfall for a
plaintiff that stands to collect more than it
has actually lost. But the problem, Valbruna says, is that there was ‘‘no evidence’’ of
a potential windfall. There may have been
no direct evidence of the windfall, like a
cost-based comparison, but that is not a
requirement under CERCLA. The district
court could, as it did, reasonably infer the
potential windfall from the existing record.
It is not a hard inference to draw: if a
rational buyer pursues a piece of property
knowing that it will have to spend X for
cleanup, it will discount the potential value
of the property by X and accordingly reduce its purchase price by X. ‘‘No sensible
person would pay as much for a property
with a known liability as for one without,
whether the price expressly discounted for
the cleanup or not.’’ W. Properties Serv.
Corp. v. Shell Oil Co., 358 F.3d 678, 691
(9th Cir. 2004), abrogation on other
grounds recognized in Kotrous v. GossJewett Co. of N. Cal., 523 F.3d 924, 931
(9th Cir. 2008). So from the PPA, which
Valbruna, a sophisticated, experienced,
well-lawyered manufacturer, entered into,
the district court could rationally infer that
Valbruna considered the $500,000 PPA
payment as ‘‘functionally part of the
price.’’
Valbruna also cites Trinity Indus., Inc.
v. Greenlease Holding Co., 903 F.3d 333,
362 (3d Cir. 2018), but that case was different. In Trinity Indus., the Third Circuit
vacated the district court’s imposition of a
10% equitable deduction from the recoverable costs because, as a result of the cleanup, the property’s value increased. The
Third Circuit recognized the valid equitable concern behind the deduction (to prevent windfall recoveries), yet it held that
without evidence of how much the proper-

567

ty’s value had increased the deduction
lacked evidentiary support. Here, however,
the district court did not peg the deduction
ad hoc without evidence. Valbruna’s prepurchase decision to put the $500,000 in
escrow suggests strongly that Valbruna
considered it (a) to be a necessary cleanuprelated liability and (b) factored it into the
purchase price accordingly. More evidence
would have been preferable, but the district court’s decision was rational.
[24] The second challenge Valbruna
makes is to the district court’s decision to
hold Valbruna accountable for 25% of past
and future costs. Valbruna tells us that
this number is unprecedented, and that no
court has ever held a no-fault owner to
more than 10% of the costs.
We agree that the 25% imposition is
striking, but we disagree that the district
court exceeded its discretion. The district
court’s decision was based on the evidence
and reasoned. The court cited the fact that
Valbruna clearly understood the site’s serious pollution problems before deciding to
purchase it—so caveat emptor. Valbruna
offers no reason why that consideration
was inappropriate. There was also evidence that Valbruna paid far less than the
asking price, $6.4 million compared to $20
million, and far less than the amount for
which it ultimately insured the site, around
$80 million. So, again, the district court
was rationally concerned about a windfall
for Valbruna. The district court’s 25% imposition on a no-fault owner reached the
limits of its discretion, but we see no abuse
of that discretion based on the facts of this
case.
AFFIRMED

,

EXHIBIT B

Case: 18-2633

Document: 51

Filed: 09/06/2019

Pages: 1

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
September 6, 2019
Before
WILLIAM J. BAUER, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 18-2633 & 18-2738
VALBRUNA SLATER STEEL
CORPORATION, et al.,
Plaintiffs-Appellees,
Cross-Appellants

Appeal from the United States District
Court for the Northern District of Indiana,
Fort Wayne Division.
No. 1:10-cv-00044-JD

v.
JOSLYN MANUFACTURING
COMPANY, et al.,
Defendants-Appellants,
Cross-Appellees.

Jon E. DeGuilio,
Judge.

ORDER
On consideration of the petition for rehearing en banc, no judge in regular active
service has requested a vote on the petition for rehearing en banc and the judges on the
original panel have voted to deny rehearing. It is, therefore, ORDERED that the
petition for rehearing en banc is DENIED.

